HHS/OIG-Audit--"Review of Clinical Laboratory Services Provided Under the Iowa Medicaid Program, (A-07-95-01139)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Clinical Laboratory Services Provided Under The Iowa Medicaid
Program," (A-07-95-01139)
September 27, 1995
Complete Text of Report is available in PDF format
(1.4 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides you with the results of our review of Clinical Laboratory
Services Provided Under the Iowa Medicaid Program. Medicaid providers received
excess reimbursement estimated at $171,025 during calendar years 1993 and 1994
for clinical laboratory services that were unbundled (not grouped for payment)
or duplicated. The State did not have procedures to prevent paying for unbundled
or duplicate laboratory services. We recommend the State (1) install edits to
prevent payments for unbundled or duplicate services; (2) instruct providers
on bundling requirements; (3) identify and recover 1993 and 1994 overpayments
from providers; and (4) return the Federal share of recovered overpayments to
the Health Care Financing Administration (HCFA). We estimate that the State
could save $85,513 (Federal share $53,548) annually or about $427,565 over a
5-year period by implementing bundling and duplicate edit procedures.